HHS/OIG, Audit - "Review of Undistributable Child Support Collections in
Kentucky From October 1, 1998, Through December 31, 2005," (A-04-06-03507)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review
of Undistributable Child Support Collections in Kentucky From October 1, 1998,
Through December 31, 2005," (A-04-06-03507)
November 30, 2007
Complete
Text of Report is available in PDF format (457 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
During our review
period, the Kentucky Division of Child Support (the State agency)
did not recognize any undistributable child
support collections, nor did it report any of them as program income.
As of December 2005, the State agency
had not recognized or reported program income totaling $2,681,571 ($1,769,837
Federal share) for undistributable child support collections and interest income
earned from uncashed State Department
of Treasury (Treasury) checks.
We recommended that the State agency (1) ensure that undistributable
collections totaling $2,040,753 ($1,346,897 Federal share) are transferred to
the States general fund or Treasury and reported as program income, (2)
recognize and report program income totaling $640,818 ($422,940 Federal share)
for interest earned from uncashed Treasury checks, (3) implement policies and
procedures to ensure that uncashed checks and undistributed collections are
transferred to Treasury and reported as program income, (4) implement policies
and procedures to recognize and report as program income the interest earned
from uncashed Treasury checks, and (5) recognize and report program income for
collections that became eligible for forfeiture or abandonment and interest
earned from uncashed Treasury checks subsequent to our audit period.  The State
agency concurred with our findings.